OIG Investigative Reports Press Release, Pittsburgh PA, 04/25/2013 - Cranberry Township Woman Pleads Guilty in Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of PENNSYLVANIA
NEWS
Cranberry Township Woman Pleads Guilty in Student Loan Fraud Scheme
FOR IMMEDIATE RELEASE
www.justice.gov/usao/paw
April 25, 2013
PITTSBURGH, Pa. - A resident of Cranberry Township, Pa., pleaded guilty in federal court to charges of bank fraud and mail fraud, United States Attorney David J. Hickton announced today.
Meredith Shuster, 36, pleaded guilty to two counts before United States District Judge Mark R. Hornak.
In connection with the guilty plea, the court was advised that Shuster fraudulently obtained $729,000 in private lender student loans through using the identities and financial information of her parents.
Judge Hornak scheduled sentencing for Aug. 8, 2013 at 9:30 a.m. The law provides for a total sentence of 50 years in prison, a fine of $500,000, or both. Under the Federal Sentencing Guidelines, the actual sentence imposed is based upon the seriousness of the offenses and the criminal history, if any, of the defendant.
Pending sentencing, the court continued Shuster on bond.
Assistant United States Attorney Robert S. Cessar is prosecuting this case on behalf of the government.
The United States Postal Inspection Service, Postal Inspector Molly Hackimer, the Department of Education, Office of Inspector General and the Pennsylvania Higher Education Assistance Agency conducted the investigation that led to the prosecution of Meredith L. Shuster.
Top
Printable view
Last Modified: 04/29/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov